HHS/OIG, Audit -"Audit of Payments for Medicaid Services to Deceased Beneficiaries, October 1, 1998 Through September
30, 2001, Massachusetts Office
of Medicaid,"(A-05-04-00030)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Payments for Medicaid Services to Deceased Beneficiaries, October 1, 1998 Through September 30, 2001,
Massachusetts Office of Medicaid," (A-05-04-00030)
February 22, 2005
Complete
Text of Report is available in PDF format (245 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the review was to determine the amount of Medicaid overpayments resulting from providers billing for
medical services for dates after the beneficiaries’ death.  We found that for the period October 1, 1998, through
September 30, 2001, the Massachusetts Office of Medicaid did not identify all payments for medical services provided after
death.  In a statistical sample of 100 paid claims, we found 52 payments were for services billed for dates after
the Medicaid beneficiaries’ deaths.  The overpayments were not adjusted.  As a result, we estimate that
unrecovered overpayments were $1,007,431 (Federal share $503,715).  We recommended that the State agency review current
methods of data matching to ensure deceased Medicaid beneficiaries are identified and overpayments are adjusted.  Massachusetts
officials generally agreed with the recommendations and had initiated corrective actions.